           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


      THE SOCIAL SECURITY
  ADMINISTRATION’S UNPROCESSED
        ANNUAL EARNINGS
    ENFORCEMENT SELECTIONS

    August 2009   A-09-08-18047




 AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                           SOCIAL SECURITY
MEMORANDUM

Date:   August 3, 2009                                                                          Refer To:

To:     The Commissioner

From:   Inspector General

Subject: The Social Security Administration’s Unprocessed Annual Earnings Enforcement
        Selections (A-09-08-18047)


        OBJECTIVE

        Our objectives were to (1) assess the Social Security Administration’s (SSA) progress
        in resolving approximately 2.5 million Earnings Enforcement selections and (2) quantify
        the amount of improper payments for the affected beneficiaries.

        BACKGROUND
        Social Security benefits are intended to replace, in part, earnings an individual or family
        loses because of retirement, disability, or death. However, in some cases, retired
        beneficiaries may continue to work while receiving Social Security benefits. In those
        instances, Title II of the Social Security Act (Act) requires that SSA use an Annual
        Earnings Test (AET) to measure the extent of beneficiaries' retirement and determine
        the amount, if any, to be deducted from their monthly benefits. The Act provides for a
        two-tier earnings test: one for beneficiaries under full retirement age and another for
        beneficiaries in the year they attain full retirement age. 1

        Beneficiaries whose total annual earnings are equal to or less than the annual exempt
        amount will receive full benefits for the year. Beneficiaries who are younger than full
        retirement age and earn an amount in wages, self-employment income, or both over the
        annual exempt amount receive reduced benefits. 2 The annual exempt amount for




        1
            Social Security Act §§ 203(b), 203(f), and 203(h), 42 U.S.C. §§ 403(b), 403(f), and 403(h).
        2
            SSA, Program Operations Manual System (POMS), RS 02501.021 B.1.
Page 2 - The Commissioner

beneficiaries under full retirement age was $12,000 in 2005. 3 Generally, for every
$2 beneficiaries earn over the annual exempt amount, SSA is required to deduct $1 in
benefits. 4

To ensure compliance with the AET provisions, SSA compares beneficiaries’ reported
earnings that are recorded on SSA’s Master Beneficiary Record (MBR) 5 with earnings
that were reported by employers that are recorded on SSA’s Master Earnings File
(MEF). 6 This process, called the Earnings Enforcement Operation (EEO), is designed
to detect over- or underpayments that may have occurred during the year.

Our 2007 audit 7 of the AET disclosed SSA had not adjusted the benefit payments
of all beneficiaries who were identified by the EEO. As a result, SSA overpaid
about $313 million to 89,300 beneficiaries and underpaid about $35 million to
12,800 beneficiaries for Calendar Years (CY) 2002 through 2004. In addition,
we found SSA had not processed approximately 2.1 million of the 2.5 million
Earnings Enforcement selections for CYs 1996 through 2005. We made several
recommendations to improve the EEO, including that SSA review and process, as
appropriate, all Earnings Enforcement selections pending since 1996.

RESULTS OF REVIEW
SSA had not made significant progress to resolve the 2.5 million Earnings Enforcement
selections. Of the approximately 2.1 million Earnings Enforcement selections that
were pending at the time of our prior audit, we found SSA had only processed about
337,500 (16.1 percent). In addition, our review disclosed there was a substantial
number of improper payments in the backlog for the affected beneficiaries.

Based on a random sample of 275 beneficiaries, we estimate SSA

    overpaid about $956 million to 616,459 beneficiaries and

    underpaid about $245 million to 181,312 beneficiaries (see Appendix C).




3
    SSA, POMS, RS 02501.025 D.
4
    SSA, POMS, RS 02501.025 D and RS 02501.080 A.1.
5
  The MBR contains identifying information for each beneficiary, including entitlement data, benefit
payment history, and earnings reported by the beneficiary.
6
  The MEF contains earnings for all workers. SSA posts earnings to the MEF based on information
obtained from employers and the Internal Revenue Service (for self-employed individuals).
7
 SSA/OIG, Improper Payments Resulting from the Annual Earnings Test (A-09-07-17066),
August 31, 2007.
Page 3 - The Commissioner


              Improper Payments Resulting from Backlog
                     Based on R andom Sample of 275 Beneficiaries

                                                                68 Overpayments
                                                                    (24.7%)




      187 Correct Payments                                     20 Underpayments
             (68.0%)                                                 (7.3%)




Records Identified by EEO Not Processed

The AET process involves two automated steps after the beneficiaries who are subject
to enforcement are identified. First, the EEO program determines the amount of
earnings that are used for the AET (called enforceable earnings). The records are then
screened to ensure they meet the AET criteria for processing. For example, the EEO
program determines whether the enforceable earnings are greater than the annual
exempt amount and different from the amount recorded on the MBR. Second, if the
records meet the EEO screening criteria, the records are processed through SSA’s
Automated Job Stream (AJS-3) program. The AJS-3 makes necessary changes to the
beneficiary records, which includes establishing over- or underpayments. In addition,
AJS-3 sends notices to the beneficiaries to inform them of the actions taken. Any EEO
selections not processed by AJS-3 require review and manual processing. For
example, SSA may need to verify questionable earnings by contacting employers.

After the Office of Systems identified the records subject to enforcement, we found the
Office of Quality Performance (OQP) removed about 37 percent of the selected records
from the process during CYs 1996 through 2005. The remaining records were returned
to the Office of Systems and processed, as required by SSA policy. According to OQP,
it removed these records to identify ways of automating the processing of EEO
selections that would otherwise require manual intervention. OQP also stated it
removed EEO selections that were susceptible to error (for example, wages earned
before an individual's entitlement to benefits) if they were automatically processed by
AJS-3.
Page 4 - The Commissioner

Our 2007 audit disclosed that of the 2.5 million beneficiary records OQP removed for
CYs 1996 through 2005, it had only processed 425,354 records as of May 2007. 8
Therefore, 2.1 million beneficiary records subject to the AET were not processed. The
following table summarizes the number of beneficiary records OQP removed from the
EEO and the number of beneficiary records still pending for CYs 1996 through 2005.

                        Number Removed              Number Pending            Number Pending
         CY                 by OQP                   as of May 2007          as of February 2009
        1996                 206,873                      143,641                   143,641
        1997                 239,618                      148,427                   148,427
        1998                 281,525                      168,674                   168,674
        1999                 319,523                      248,776                   248,776
        2000                 369,767                      344,561                   344,561
        2001                 225,922                      211,463                   211,463
        2002                 212,014                      198,577                   198,577
        2003                 227,764                      209,957                   209,957
        2004                 202,478                      190,100                         0
        2005                 207,550                      203,504                    56,105
        Total              2,493,034                    2,067,680                 1,730,181

As a result of our 2007 audit, in March 2007, OQP established a workgroup to evaluate
options for addressing the backlog and improving the EEO. The workgroup consisted of
SSA employees from the Offices of Operations, Systems, and Policy. The workgroup’s
actions have resulted in a reduction in the backlog and modifications to the current
EEO. Specifically, OQP reported it processed all the 2004 records and 151,445 of the
records for CY 2005. However, OQP had not developed a plan for processing the
remaining backlog of 1.7 million records for CYs 1996 through 2003. SSA is concerned
these backlogged cases could not be automated and would require manual processing.
Beginning in CY 2006, SSA reduced the number of EEO selections that require OQP
review and increased the number of records that could be automatically processed by
AJS-3. Finally, OQP provided information that showed a 37-percent reduction in the
number of records it removed from the EEO in CY 2006 as compared to CY 2005.

Unprocessed OQP Backlog Resulted in Improper Payments

Our audit determined there was a substantial number of improper payments in the
backlog of EEO selections for the affected beneficiaries. Specifically, we found SSA
improperly paid 88 (32 percent) of the 275 beneficiaries in our sample: 68 were
overpaid $105,432, and 20 were underpaid $26,996. Based on our sample results, we
estimate SSA overpaid about $956 million to 616,459 beneficiaries and underpaid about
$245 million to 181,312 beneficiaries (see Appendix C).




8
    Represents the date OQP provided its database of all beneficiary records removed from the EEO.
Page 5 - The Commissioner

For example, one beneficiary in our sample was overpaid $3,223 because her actual
earnings of $17,966 in 2003 exceeded the annual exempt amount of $11,520. SSA had
not previously reduced her benefits because her estimated earnings were less than the
annual exempt amount. Another beneficiary in our sample was underpaid
$761 because she overestimated her 2001 earnings. SSA deducted $761 of monthly
benefits in 2001 because she had estimated total earnings of $11,228, $548 more than
the annual exempt amount. However, her actual earnings for 2001 were less than the
annual exempt amount. The following table summarizes the number and amount of
improper payments in our sample.

                Number of          Amount of     Number of     Amount of
     CY        Overpayments       Overpayments Underpayments Underpayments
    1996             1              $    424          2        $     442
    1997             7                 5,566          1              593
    1998             3                 5,695          3              663
    1999             6                 6,318          3            6,206
    2000            11                10,688          2              702
    2001             7                 8,965          3            3,027
    2002             8                 6,959          0                0
    2003            12                26,140          1            3,147
    2004             6                19,302          3            5,678
    2005             7                15,375          2            6,538
    Total           68              $105,432         20         $26,996

We encourage SSA to develop a cost-effective plan to process the backlogged
cases. We believe SSA should focus its efforts on underpayments, large
overpayments, and beneficiaries in current pay status. For example, in our sample
of 275 beneficiaries, we found 21 were deceased and 59 were in terminated pay status
for reasons other than death. As a result, it may be more cost-effective for SSA to
initially process overpayments for individuals who are currently receiving benefits since
collection is more likely.
Page 6 - The Commissioner

CONCLUSIONS AND RECOMMENDATION
We found SSA had not made significant progress to resolve the backlog of about
2.5 million beneficiary records that were subject to the AET. Based on our sample
results, we estimate SSA overpaid about $956 million to 616,459 beneficiaries and
underpaid about $245 million to 181,312 beneficiaries. These payment errors occurred
because SSA did not process all beneficiary records identified by the EEO.

We are encouraged that SSA has taken steps to reduce the backlog and improve the
EEO. OQP staff stated they had processed all the Earnings Enforcement selections in
the backlog for CY 2004 and about 73 percent of the selections for CY 2005. OQP also
provided information that showed a 37-percent reduction in the number of records it
removed from the EEO in CY 2006 as compared to CY 2005. However, OQP has not
presented a plan on how to resolve the beneficiary records pending for CYs 1996
through 2003. These unprocessed records represent about 67 percent of the total
records OQP removed from the EEO for CYs 1996 through 2005.

We recommend that SSA develop a cost-effective plan to process, as appropriate, the
backlogged Earnings Enforcement selections for CYs 1996 through 2003.

AGENCY COMMENTS
SSA agreed with our recommendation. The Agency’s comments are included in
Appendix D.


                                             S
                                             Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Sampling Methodology and Results

APPENDIX D – Agency Comments

APPENDIX E – OIG Contacts and Staff Acknowledgments
                                            Appendix A

Acronyms
Act      Social Security Act
AET      Annual Earnings Test
AJS      Automated Job Stream
CY       Calendar Year
EEO      Earnings Enforcement Operation
MBR      Master Beneficiary Record
MEF      Master Earnings File
OIG      Office of the Inspector General
OQP      Office of Quality Performance
POMS     Program Operations Manual System
SSA      Social Security Administration
U.S.C.   United States Code
                                                                      Appendix B

Scope and Methodology
Our audit covered beneficiaries identified by the Earnings Enforcement Operation
(EEO) for the period January 1, 1996 to December 31, 2005. To accomplish our
objectives, we

   reviewed the applicable sections of the Social Security Act and the Social Security
    Administration’s (SSA) Program Operations Manual System;

   interviewed staff from SSA’s Office of Quality Performance (OQP);

   selected a random sample of 275 beneficiary records from the 2,493,034 records
    OQP removed from the EEO for Calendar Years (CY) 1996 through 2005;

   reviewed queries from SSA’s Master Beneficiary Record, Master Earnings File, and
    Payment History Update System to determine whether the Agency properly adjusted
    benefits based on actual earnings;

   referred 165 beneficiary records to OQP to determine the amount of any over- or
    underpayments to the affected beneficiaries; and

   reviewed the decisions OQP made on 165 beneficiary records in our sample.

OQP provided the total number of beneficiary records removed from the EEO for
CYs 1996 through 2005. We determined these computer-processed data were
sufficiently reliable for our intended use. We conducted tests to determine the
completeness and accuracy of the data. These tests allowed us to assess the
reliability of the data and achieve our audit objectives.

We performed audit work in Richmond, California, from September 2008 through
March 2009. The entity audited was OQP under the Deputy Commissioner for Quality
Performance.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform
the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objectives. We believe the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.
                                                                             Appendix C

Sampling Methodology and Results
We obtained a database from the Social Security Administration’s (SSA) Office of
Quality Performance (OQP) of all beneficiary records it had removed from the Earnings
Enforcement Operation as of May 2007. From this database, we extracted all
beneficiary records that OQP removed for Calendar Years (CY) 1996 through 2005.
We also screened the database to eliminate any records that were selected more than
once for each year. This resulted in a population of 2,493,034 beneficiary records.

From the population of 2,493,034 records, we randomly selected a sample of
275 beneficiaries for review. For each beneficiary, we determined whether SSA had
properly adjusted benefits based on actual earnings. In addition, OQP reviewed 165 of
the beneficiaries to determine the amount of any over- or underpayment that should
have been established.

Of the 275 beneficiaries in our sample, we found SSA overpaid $105,432 to
68 beneficiaries and underpaid $26,996 to 20 beneficiaries for CYs 1996 through 2005.
Projecting these results to the population of 2,493,034 beneficiaries, we estimate SSA
overpaid about $956 million to 616,459 beneficiaries and underpaid about $245 million
to 181,312 beneficiaries. 1 The following tables provide the details of our sample results
and statistical projections.

                 Table 1: Population and Sample Size                              Number
    Population Size                                                                 2,493,034
    Sample Size                                                                           275

               Table 2: Overpayments                            Number           Amount
    Sample Results                                                      68          $105,432
    Point Estimate                                                 616,459      $955,802,039
    Projection - Lower Limit                                       510,709      $702,482,021
    Projection - Upper Limit                                       732,478     $1,209,122,057
Note: All projections are at the 90-percent confidence level.

              Table 3: Underpayments                            Number            Amount
    Sample Results                                                      20            $26,996
    Point Estimate                                                 181,312       $244,734,349
    Projection - Lower Limit                                       121,454       $121,909,955
    Projection - Upper Limit                                       259,091       $367,558,742
Note: All projections are at the 90-percent confidence level.

1
  The over- and underpayment amounts were reduced by any corresponding increase or decrease in the
beneficiaries' monthly benefit amounts due to a change in the monthly reduction factor or delayed
retirement credits.
                  Appendix D

Agency Comments
                                       SOCIAL SECURITY

MEMORANDUM


Date:      June 22, 2009                                                           Refer To: S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      James A. Winn /s/ Jo Tittel for
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, "The SSA's Unprocessed Annual Earnings
           Enforcement Selections" (A-09-08-18047)--INFORMATION


           Thank you for the opportunity to review and comment on the draft report. We appreciate OIG’s
           efforts in conducting this review. Attached is our response to the report findings and
           recommendation.

           Please let me know if we can be of further assistance. Please direct staff inquiries to
           Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

           Attachment:
           SSA Response




                                                          D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, "THE SSA'S UNPROCESSED ANNUAL EARNINGS ENFORCEMENT
SELECTIONS" (A-09-08-18047)


We reviewed the subject report. The report should fully explain the effects of the adjustment of
the reduction factor and delayed retirement credits on monthly benefits. These adjustments
influence the total dollar value of any overpayments or underpayments that result from the
enforcement actions.

Recommendation

Develop a cost-effective plan to process, as appropriate, the backlogged Earnings Enforcement
selections for calendar year’s (CY) 1996 through 2003.

Response

We agree. We plan to keep current with future enforcement selections. Working the backlogged
Earnings Enforcement selections for CY’s 1996 through 2003 manually is cost-prohibitive. In
addition, analysis has shown that even when manually processed, a large number of the
backlogged cases will result in no change. Therefore, to the extent possible, we will automate
the processing of these backlogged Earnings Enforcement selections.




                                               D-2
                                                                     Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   James J. Klein, Director, San Francisco Audit Division

   Jack H. Trudel, Audit Manager

Acknowledgments

In addition to those named above:

   Jim Sippel, Senior Auditor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-09-08-18047.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
